                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          March 22, 2013

Subject:       Final Report on the Program Evaluation of Peace Corps/Malawi
               (IG-13-02-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Malawi.

Management concurred with all 21 recommendations. All 21 recommendations remain open.
The post has provided supporting documentation for 11 of the 21 recommendations, which OIG
will review following completion of approval and verification procedures through the region and
chief compliance officer. OIG will review and consider closing recommendations 2, 4, 5, 7 -9,
11-14, and 16-21 when the documentation reflected in the agency’s response to the preliminary
report is received. OIG will review and consider closing recommendations 1, 3, 6, 10, and 15
pending confirmation from the chief compliance officer that the documentation reflected in the
OIG Analysis is received. In its response, management described actions it is taking or intends to
take to address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the agency has taken these actions or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities.

Our comments, which are in the report as Appendix C, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Reuben Marshall at
202.692.2903.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Esther Benjamin, Associate Director for Global Operations
        Dick Day, Regional Director, Africa
        Michael Simsik, Chief of Operations, Africa
        Krista Rigalo, Chief of Programming and Training, Africa
Sarah Morgenthau, Director, Peace Corps Response
Kevin Novotny, Country Director
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Malawi Country Desk
Peace Corps
Office of Inspector General




 “Elephant Rock” near Chikangawa, Northern Region, Malawi




                      Flag of Malawi


Final Program Evaluation Report:
       Peace Corps/Malawi
                   IG-13-02-E

                                                    March 2013
                                   EXECUTIVE SUMMARY
Over 2,500 Peace Corps Volunteers have served the people of Malawi since the first Volunteers
arrived in 1963. The program was twice suspended, from 1969 to 1973 and 1976 to 1978. There
are currently three project sectors in Malawi: (1) community health, (2) secondary education, (3)
natural resource management. At the onset of this evaluation there were 88 Volunteers serving in
Malawi, 37 trainees in pre-service training, and 12 Peace Corps Response Volunteers (PCRV).

Towards the end of 2011, the management of PC/Malawi (hereafter, “the post”) changed hands
following the turnover of all three of the post‟s USDH staff. Upon arriving at the post, the
incoming management team encountered significant funding shortfalls caused by issues with the
post‟s financial management processes and headquarters oversight. Senior staff worked closely
with headquarters to address the most critical issues though ongoing budgeting challenges
remain.1 The evaluation revealed additional management issues including unclear and duplicate
roles and responsibilities in the programming unit and difficulties collecting and reporting
performance data. Senior staff was addressing these management challenges and Volunteers and
staff in Malawi and headquarters staff were encouraged by their efforts and satisfied with the
post‟s current leadership and direction.

The evaluation determined that the Peace Corps program addresses some of Malawi‟s most
pressing development needs. The post benefits from a history of strong support from host
country officials, however Ministry officials were poorly informed about Volunteers‟ project
goals and activities. Site preparation was another area in need of improvement. Poor site
preparation by programming staff caused unnecessary obstacles for Volunteers at the start of
their service and significantly reduced the impact of the Peace Corps Response program in
PC/Malawi.

Volunteers were very satisfied with staff support in the areas of safety and security, medical, and
administrative support. In a number of other areas, the post struggled to provide adequate support
and oversight to Volunteers. For instance, program staff communicated poorly with Volunteers
and failed to provide effective supervision and expectation setting. As a result, Volunteers were
disconnected from staff and felt discouraged and demoralized and some Volunteers had stopped
taking their assignments seriously. Additional issues related to safety and security operations
included incomplete and inaccurate site locator forms and poor Volunteer access to updated
emergency action plans.

The post‟s training program was effective in the key areas of language, culture, safety and
security, and medical training. Training areas in need of improvement included technical
training, grants training, and HIV/AIDS training. Technical training was negatively impacted by
high staff turnover and poor participation by program managers. HIV/AIDS training was
ineffective for some Volunteers based on their prior experience and site placements. Grants
training did not adequately prepare Volunteers to address questions regarding appropriate
resources and project sustainability.
1
 Senior staff generally refers to the CD, the DMO, and, when applicable, the DPT, who worked at the post from
December 2011 until April 2012 before departing for medical reasons.


Final Program Evaluation Report: Peace Corps/Malawi                                                             i
PC/Malawi uses PEPFAR funds to fully support the costs of Peace Corps Response Volunteers,
partially support two-year Volunteer costs, and for HIV/AIDS training for all Volunteers. The
post is implementing its PEPFAR objectives, however it struggled to collaborate effectively with
other agencies and to collect essential HIV-related data.

Our report contains 21 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Malawi                                            ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................................... i

HOST C OUNTRY BACKGROUND .......................................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND ........................................................................................... 1

EVALUATION R ESULTS ........................................................................................................................ 3

          MANAGEMENT CONTROLS ............................................................................................................................. 3

          P ROGRAMMING .............................................................................................................................................. 9

          VOLUNTEER SUPPORT .................................................................................................................................. 15

          TRAINING ...................................................................................................................................................... 23

          P RESIDENT’S EMERGENCY P LAN FOR AIDS RELIEF .................................................................................. 26


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................................... 29

INTERVIEWS CONDUCTED ................................................................................................................. 30

LIST OF RECOMMENDATIONS ........................................................................................................... 33

APPENDIX A: LIST OF ACRONYMS ................................................................................................... 35

APPENDIX B: AGENCY’ S RESPONSE TO THE PRELIMINARY REPORT ............................................. 36

APPENDIX C: OIG COMMENTS......................................................................................................... 46

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ................................ 49
                          HOST COUNTRY BACKGROUND
Malawi is a small, densely populated country in southeast Africa bordered by Zambia,
Mozambique, and Tanzania. Formerly the British Protectorate of Nyasaland, Malawi gained its
independence from Britain in 1963. In 1994, after thirty years of one-party rule, Malawi
peacefully elected a new government committed to multi-party democracy. Following the sudden
death of the president in April 2012, Vice President Joyce Banda was sworn in as Malawi‟s new
president and became Africa‟s second female head of state.

In the 2011 United Nations Human Development report, Malawi ranked 171 out of 187
countries, placing it between Cote d'Ivoire and Afghanistan. 2 Malawi has immense development
needs: the average life expectancy is 54 years at birth; maternal mortality rates are 675/100,000;
under-five mortality rates are 110/1,000; 47 percent of children under-five are stunted; and an
estimated 6,000,000 cases of malaria occur annually. The prevalence of HIV/AIDS has been
reduced to 10.6 percent from a high of 22 percent in 1999; however the poor state of the
economy and the potential termination of funding sources could undermine efforts against
HIV/AIDS. Adult literacy is estimated at 74 percent but English comprehension skills remain
low and there is a shortage of qualified teachers, overcrowding of classrooms, and a lack of
education resources. Malawi‟s environment is weakened by deforestation, overgrazing, and
pressure on the land from high population growth.

In the past two years Malawi has faced significant economic challenges. Due to pronounced and
chronic foreign exchange shortfalls, Malawi has experienced fuel and supply shortages, rampant
inflation, and shortages of essential drugs. In May 2012, the government devalued the local
currency, the Malawian Kwacha, a move supported by the International Monetary Fund, with the
goals of increasing the availability of foreign currency, reinvigorating the economy, and
releasing suspended aid from donors. Although government officials and donors believe the
devaluation will have a long-term positive impact on the economy, the move raised the prices of
many basic items by as much as 50 percent, driving many Malawians further into poverty.


                   PEACE CORPS PROGRAM BACKGROUND
The first Peace Corps Volunteers arrived in Malawi in 1963. The program was suspended from
1969 to 1973 and from 1976 to 1978, due to perceptions by the conservative government that
Volunteers were “non-conformist.” Peace Corps returned to Malawi in 1978 and has operated
continuously since then. In total, over 2,500 Americans have served as Peace Corps volunteers in
Malawi.

Prior to 1994, when the president of thirty years stepped down from office, foreigners were not
allowed to live in rural areas. After 1994, the opening up of Malawian society made it possible to
place Peace Corps Volunteers at the rural community level. Currently, Volunteers work in three

2
 The United Nations Human Development Report publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and income.


Final Program Evaluation Report: Peace Corps/Malawi                                                      1
sectors – community health, secondary education, and natural resources management. All
Volunteers receive HIV/AIDS training and are encouraged to conduct HIV/AIDS projects and
activities. Peace Corps Response Volunteers work with government officials at the district level
to strengthen Malawi‟s response to the HIV/AIDS epidemic.

At the onset of this evaluation, 88 Volunteers were serving in Malawi and there were 37 trainees
in pre-service training and 12 PCRVs. The last OIG evaluation was conducted in 1998 and an
evaluation team visited Malawi twice in 2005-2006 as part of a study of nine effective posts
around the world.

The post‟s total FY 2012 budget, including its President‟s Emergency Plan for AIDS Relief
(PEPFAR) spending, was $2.9 million. 3 At the time of the evaluation, the post had 33 permanent
staff positions.

A more detailed explanation of the three project areas are discussed below:

        Secondary Education
    The secondary education project seeks to address severe teacher shortages by placing
    teachers in Community Day Secondary Schools (CDSS). CDSS, which are established by
    communities, have had little support from the government in terms of teachers' salaries and
    teaching resources. Volunteers teach physical science, mathematics, biology, and English and
    are encouraged to integrate girls‟ education and life skills into lessons by utilizing
    Community Content Based Instruction (CCBI) techniques.

        Community Health & HIV/AIDS
    The health project addresses health issues in rural areas. Volunteers are posted at rural health
    centers and focus on community health interventions. The project supports government
    efforts to provide a minimum package of essential health services to all its citizens, with
    great emphasis on poor women and children and those impacted by HIV/AIDS. The project‟s
    focus areas are: disease prevention, behavior change, women‟s health issues, and support and
    care for people living with HIV/AIDS (PLWA).

        Community Based Natural Resources Management
    The natural resource management project places Volunteers in communities that border
    forest reserves, game reserves and game parks. Volunteers, communities, and government
    staff work jointly to enhance the protection, conservation, and management of individual and
    community natural resources. This is accomplished through the promotion of counterpart and
    community capacity building, sustainable natural resources management techniques, and
    income generating activities.




3
 This amount does not include the salaries, benefits, and related cost of U.S. Direct Hires assigned to the post and
other costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Malawi                                                                    2
                                       EVALUATION RESULTS
MANAGEMENT CONTROLS

One of the key objectives of our country program evaluation is to assess the extent to which the
post‟s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post‟s strategic planning and budgeting.

The evaluation revealed a post in transition with regard to management controls. Towards the
end of 2011, management of the post changed hands following the turnover of all three of the
post‟s U.S. direct hire (USDH) staff: the country director (CD), assistant Peace Corps director
(APCD), and the director of management operations (DMO).4 During 2012, the post‟s incoming
management team addressed a number of management issues to better align the post‟s resources
and agency support with the post‟s mission and agency priorities. Chief among those challenges
were significant funding shortfalls caused by weaknesses with the post‟s financial management
processes and insufficient headquarters oversight. Additional management issues included
personnel management and performance reporting. Although senior staff was grappling with
significant management challenges, Volunteers and staff in Malawi and headquarters were
satisfied with the post‟s current leadership and direction.

The host country weathered a series of recent crises that tested post morale, including the decline
of Malawi‟s economy which lowered their standard of living. The local economy experienced
substantial inflation from July to August 2011 and many household goods doubled in price. In
May 2012, the local currency was devalued by 40 percent which raised the price of fuel and
drove up the price of locally produced goods and commodities. Although local staff is satisfied
with the post‟s current direction and report improving morale, they report that the numerous
changes in the office – new staff, new policies, the Focus In/Train Up (FITU) initiative from
headquarters – have been at times overwhelming. 5 At the time fieldwork was conducted for this
evaluation, the post was awaiting the arrival of a new DPT to replace the prior DPT who left for
medical reasons after five months of service. Local staff was hopeful that a period of stability
would follow the arrival of the new DPT.

Management Structure. The post‟s senior staff took steps to adjust the post‟s management
structure and the adjustment received high levels of satisfaction from staff and Volunteers. The
post‟s former management team had implemented a management structure that concentrated
decision-making at the top of the management team and disempowered support staff, who found
themselves at times overruled in favor of Volunteers. This had created an environment in which,
according to one staff, “Volunteers ran the roost.” This environment had a negative impact on
staff morale, Volunteer oversight, and Volunteer professionalism.

4
  The USDH APCD managed the education sector and was replaced with a USDH director of programming and
training.
5
    FITU seeks to focus on a limited number of highly effective Volunteer projects to maximize Peace Corps‟ impact.


Final Program Evaluation Report: Peace Corps/Malawi                                                                   3
Senior staff had taken steps to more fully include host country staff in the management structure
and restore authority for decisions with the appropriate support staff. Staff reported high levels of
satisfaction with the post‟s current management structure. Senior staff had also worked to
improve Volunteer professionalism. A Volunteer dress code was implemented at the office and a
mentoring program was established with embassy staff to provide Volunteers with a professional
development opportunity. Volunteers reported strong levels of satisfaction with this adjustment
to the post‟s management structure. Their comments included:

       “At no point along the line does [the CD] think his job is to make Volunteers
       happy, what he wants is for us to be able to do our jobs as best as possible.”

       “I‟m extremely hopeful, I really like what [senior staff] is doing. There is much
       stronger professionalism in the office.”

       “[The CD] is delightfully professional and non-personal.”

       “When I first got here there was public misbehavior (among Volunteers)…it kept
       happening and there was no accountability…we've been changing the culture and
       the new office has been reinforcing that and currently it has improved.”

Staff Development. Several of the post‟s local staff struggled with a number of job
competencies due to lack of experience and training. We confirmed that staff struggled with
information technology (IT) applications such as Microsoft Outlook. Senior staff initiated a staff
development spreadsheet where training needs could be selected that included an integrated role
for supervisors. The spreadsheet has the capacity to function as a staff development plan. Senior
staff also discussed plans to implement in-house IT training sessions by blocking off “no-travel”
days on a calendar to facilitate all-staff training sessions in the office. Staff was responsive to the
opportunities for more training and, in light of the post‟s budget limitations, we commend senior
staff for identifying low-cost staff development activities.

Issues related to the post’s financial management and oversight resulted in significant
funding shortages.

The post had experienced significant problems with its financial management processes that have
had an impact on post operations. The post‟s FY 2012 budget was straight-lined from the
previous year despite anticipated increased operational costs due to local economic conditions
and high inflation. The post‟s FY 2012 budget relied too heavily on host country contributions
(HCC) and failed to allocate sufficient funds to fully support the operations of the post. The
evaluation revealed the following weaknesses in post operations:

       Due to budget shortfalls there were unpaid invoices for utilities, rent, and other basic
       operations.

       Volunteers were not receiving a living allowance sufficient to pay their basic living
       expenses, which rose rapidly over the summer of 2011 due to high inflation. A living



Final Program Evaluation Report: Peace Corps/Malawi                                                   4
       allowance survey conducted in January - February 2012 revealed that Volunteers
       required a 75 percent living allowance increase.

       The post did not have sufficient budget resources to meet expenses for: staff in-country
       travel to conduct site visits and site development activities; key components of PST such
       as host family expenses and staff travel; a staff position in the programming unit; local
       staff salary increases that were implemented in 2011; and the annual staff awards
       program.

       The post‟s FY 2012 operations plan neglected to account for aging facilities, old
       equipment, and necessary upgrades to residential units. According to the Integrated
       Planning and Budget System (IPBS) report submitted in 2010, “The main office has not
       been painted, repaired or improved in the last five years. Most of the office furniture is
       old, broken, and somewhat shabby…” Those issues had not been addressed and
       additional needs arose. The post‟s septic systems had not been emptied in over five years
       and began to overflow. Generators at the USDH staff residences and the office, which are
       heavily used due to frequent power outages, were second-hand when they were acquired
       several years ago and required constant repair. Mattresses at the USDH residences were
       at least 10 years old. Office equipment such as printers, scanners, and copiers, were
       beyond their useful life and frequently breaking down.

Our evaluation revealed the following causes for the post‟s financial management challenges:

       Substantial inflation occurred in Malawi from July to August 2011 and many household
       goods doubled in price. Inflation continued into 2012 and the local economy experienced
       frequent fuel and supply shortages. Foreign exchange reserves were depleted and in May
       2012, the government devalued the local currency, which further raised the prices of
       many basic items by as much as 50 percent.

       In 2012 the post shifted a number of Volunteer placements from government partnerships
       to NGOs. The host country contribution is rated by the number of Volunteers working
       directly with government partners, and this decision reduced the host country
       contribution by approximately $45,000 in FY 2012.

       The post relied heavily on host country contributions for core operational costs. The host
       country contribution, which staff reported was the largest in the world, became unreliable
       due to local political and economic conditions and the post was unable to pay invoices or
       fund essential items.

       Staff members were disconnected from the budgeting process. Staff reported that the
       2011 IPBS was written by one USDH staff without additional staff involvement. One
       senior staff stated, “I don‟t think (senior) staff has ever discussed the budget with (local
       staff). They‟ve just been handed money and then executed their work.” Comments from
       host country staff confirmed their lack of involvement:




Final Program Evaluation Report: Peace Corps/Malawi                                                   5
               “We are looking at the budgets but previously we did not. This is a plus as a post.
               Previously we did not have knowledge on how funds are developed. We would plan
               and then be told there was no money for activities that we are supposed to be doing
               routinely.”

               “In the past it was just „here is the money‟ or „there is no money.‟ Now we can talk
               about our needs and find ways to make it happen.”

       An additional cause may be attributed to an insufficient response by post and
       headquarters staff to critical budgeting problems. The post‟s 2012 operations
       plan stated, “Post found this year‟s Op Planning considerably difficult and
       unrealistic.” The plan expressed concern with the post‟s “dangerous”
       dependence on HCC for core operations costs, and reported that the post‟s
       budget mark for 2012 fell short of its needs and did not include all anticipated
       increased operational costs due to local economic conditions. However,
       insufficient actions were taken by post and headquarters staff to guard against
       these risks or address these concerns.

The post‟s financial management challenges resulted in significant funding shortages in 2012
that required financial assistance from the region to support key programs and operations. The
post‟s initial appropriated budget mark for 2012 was 1.5 million dollars, at mid-year review the
post‟s budget authority was increased by more than $300,000, and in the third and fourth
quarters another $442,000 was transferred to the posts budget to cover costs such as office
renovations, a new generator, and salary adjustments due to inflation. Senior staff at the post
indicated it could take a year or longer to get financial management back on track and were
concerned that ongoing funding limitations, and the necessity to prioritize resources, could
undermine long range planning activities and restrict staff development activities and the
implementation of new ideas.

The post‟s financial management challenges eroded the morale of staff and Volunteers.
Volunteers lost confidence with the financial management of the post. The agency‟s annual
survey data from 2011 showed that 38 percent of the Volunteer respondents in Malawi were
dissatisfied with administrative/logistical support by staff, compared to the average global
dissatisfaction rate of 13 percent. In February 2011, frustrated Volunteers filed a FOIA request to
obtain the post‟s operating budget. Staff reported that morale hit a low point in 2011 when the
post began experiencing significant funding shortages which coincided with the onset of high
inflation rates.

We found that the post‟s senior staff has worked closely with the region to address the post‟s
financial weaknesses and develop and implement more effective financial management
processes. The region asked the post to develop a three-year plan with quarterly cost factors to
ensure that the post‟s ongoing financial needs are met. This plan provides an opportunity for the
post and headquarters to implement and carry out effective financial management processes.
However, the post‟s on-going reliance on host country contributions, rather than appropriated
funds, as a primary source of funding for essential operations remains a concern.




Final Program Evaluation Report: Peace Corps/Malawi                                                   6
               We recommend:

                  1. That the regional chief of administrative operations
                     ensure that the post’s operating plan funds essential
                     operations with appropriated funds rather than host
                     country contributions.


Overlapping work activities reduced the efficiency and effectiveness of the programming unit.

The Peace Corps publication Characteristics and Strategies of a High Performing Post
emphasizes the need for practical and effective task distribution among programming staff. The
guide warns that poor or ineffective task distribution can demoralize staff and damage staff
teamwork, planning and reporting processes, training activities, and Volunteer support.

The three programming sectors are each supported by two programming staff members: an
APCD and a program assistant (PA). While their position descriptions provide role
differentiation, programming staff reported they often share the same program responsibilities
and conduct the same work activities. Confusion regarding responsibilities and task completion
caused redundant efforts with some tasks while others were not completed. Volunteers said they
were confused by programming staff roles and responsibilities and as a result, support to
Volunteers was less effective.

The distinction between the APCD and PA roles may have become less defined when two of the
post‟s PAs were promoted to the APCD position in April 2010, following long tenures of seven
and eleven years respectively. The programming unit was not staffed with a DPT until December
2011 and lack of oversight may have been a contributing factor.

Senior staff described plans to improve efficiency by better clarifying each PA‟s role and also
determining what duties a single PA could handle for the Volunteers in all three sectors. Senior
staff should also ensure that work activities are aligned with job descriptions.


               We recommend:

                  2. That the country director and director of programming
                     and training ensure that programming staff work roles
                     are clearly delineated and aligned with position
                     descriptions.


The Post’s processes to collect and report project performance were ineffective.

As part of the annual project status reporting (PSR) process, Volunteers use a data system called
the Volunteer Reporting Tool (VRT) to submit quarterly reports that collect performance data,
such as project outcomes. This performance data is reported to Peace Corps headquarters through



Final Program Evaluation Report: Peace Corps/Malawi                                                7
the PSR process and used in the agency-wide aggregation included in the agency‟s Performance
and Accountability Report (PAR).

Staff and Volunteer interviews revealed weaknesses in the collection and reporting of the post‟s
performance data. Only 30 percent of the Volunteers we interviewed completed their Volunteer
Reporting Form (VRF) “most of the time” or “always.” Volunteers reported inconsistencies in
how they collected performance data and several Volunteers completed their VRF by memory,
rather than tracking notebooks, calendars, etc. In the health and education sectors, the VRF was
poorly aligned with training and work activities and Volunteers collected the wrong data. Staff is
not responding to Volunteers after they submit their VRF form: only four of the Volunteers we
interviewed received feedback from staff.

Volunteers had not completed VRFs for several reasons. Volunteers did not feel sufficiently
trained to accurately track and report their work data. Volunteers in the health sector were not
issued VRFs during two reporting cycles and no data was collected. Project frameworks had
been under revision, but not all of the VRFs had been adjusted accordingly, which led to
confusion and frustration. Some Volunteers were frustrated by technical issues that made it
difficult for them to download and access the form. Staff did not offer encouragement to
Volunteers to complete the forms and some Volunteers who ignored their forms received no
reminders or follow up from staff. The lack of training and communications from staff gave
Volunteers the impression that staff does not take the VRF seriously.

These weaknesses in collecting and reporting performance information reduced the reliability of
data shared with the agency and with partners, while also impairing the post‟s ability to evaluate
and improve programming. Senior staff described plans to promote the importance of the VRT
by posting excerpts and best practices from completed VRFs in the post‟s newsletter and they
plan to ask Volunteers to contribute articles from their VRFs to the newsletter.


               We recommend:

                   3. That the director of programming and training ensure
                      that project frameworks are aligned with the Volunteer
                      Reporting Forms.

                   4. That the director of programming and training ensure
                      that Volunteers are adequately trained to collect
                      performance data and record it on their reporting form.

                   5. That the director of programming and training require
                      programming staff to provide timely and substantive
                      feedback to Volunteers who submit a Volunteer
                      reporting form.




Final Program Evaluation Report: Peace Corps/Malawi                                                  8
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

        the coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas;
        whether post is meeting its project objectives;
        counterpart selection and quality of counterpart relationships with Volunteers;
        site development policies and practices.

The evaluation determined that the Peace Corps program is supported by host government
ministries and the post‟s programming addresses some of Malawi‟s most pressing development
needs.

Host Country Relations. The Peace Corps enjoys wide recognition and a history of strong
support from host country officials. Ministry officials clearly understand the Peace Corps
mission and verified that Peace Corps programming aligns with Malawian development goals.
Staff reported that Malawi‟s host country contribution (HCC) was the largest in the world.
According to the 2013 IPBS, the post receives approximately $270,000 annually from the
government of Malawi. The HCC is expected to remain substantial though recently it was
impacted by the devaluation of Malawi‟s currency, Malawian government financial challenges,
and programmatic adjustments made by the post.6 The post continues to benefit from a long and
positive history in Malawi. A case study of effective programs, conducted in 2006 by OIG, found
that students once taught by Volunteers had gone on to become high level officials in Malawi,
including the Vice President. Two of the ministry officials we interviewed were taught by
Volunteer teachers and one had hosted a Volunteer. Notably, in the summer of 2011, the former
President of Malawi invited Volunteers to a barbeque at his residence. The post regularly invites
ministry partners to participate in pre-service training (PST) and swearing-in ceremonies.

Embassy Relations. The post receives excellent support from the U.S. Embassy and the
ambassador has visited numerous Volunteers in the field. Embassy staff was impressed by the
caliber of Volunteers. One embassy staff member said, “We‟ve had a terrific group of
Volunteers. Some are standouts and they‟d be welcome on our staff. They are professional and
dedicated. I‟ve visited sites and met many of them.” Peace Corps staff participates in weekly
embassy team meetings and biweekly one-on-one meetings with the ambassador and deputy
chief of mission.

Counterparts. Most Volunteers identified a number of potential counterparts who they could
choose to work with at their sites. Volunteers indicated that their counterparts supported their
work activities and also helped Volunteers integrate into their communities.



6
 The local currency was devalued by 40 percent in May 2012, after the distribution of the IPBS report. The
devaluation was expected to reduce the dollar value of the host country‟s contribution.


Final Program Evaluation Report: Peace Corps/Malawi                                                          9
While the post has host country support and a solid foundation to build on, the evaluation
revealed areas that require management attention. The remainder of this section provides more
information about these areas.

Project Plans. At the time fieldwork was conducted for this evaluation, senior staff reported that
project frameworks were not sufficiently focused and they had undertaken revisions. Project
framework revisions for the health and environment sectors had been submitted for headquarters
review. A final revision for the education framework was expected no later than September
2012. Staff planned to complete framework revisions prior to trainee inputs in 2013. Following
project framework revisions staff planned to finalize project plans for all three sectors. These
efforts will align the post with the agency‟s FITU initiative, which seeks to focus on a limited
number of highly effective Volunteer projects to maximize Peace Corps‟ impact.

The post’s small grants programs were not aligned with the Peace Corps’s approach to
development.

The Peace Corps operates a small grants program to facilitate the development and
implementation of sustainable, capacity-building projects in communities where Volunteers
serve. Just over half of the Volunteers that we interviewed received project funding from one of
the agency‟s small grants programs, including SPA, PCPP, and VAST. 7 According to
Characteristics and Strategies of a High Performing Post, “Volunteers must understand how to
generate resources and promote activities as a project or community enabler, rather than as the
means to a gift that the organization or community begins to rely on or expect. This should be
discussed initially during PST and then during an early project design and management (PDM)
IST [in-service training] that will provide detailed training on how to help a community access
resources….”

Volunteers that we interviewed reported that grants training failed to discuss and address areas of
concern related to outside funding, such as corruption and lack of sustainability. Volunteers also
felt pressured by staff to apply for grants to increase their work output. One Volunteer declared
that grants were promoted for “monument building” rather than community development.

Due to poor training and guidance, half the Volunteers we interviewed were dissatisfied with the
post‟s grant operations and were less interested in initiating grant-funded projects at their sites.
The lack of attentiveness to small project sustainability represented a divergence from the
agency‟s sustainable and community-enabling approach to development. Senior staff planned to
renew focus on project sustainability.

Staff described plans to implement PDM training, which includes discussions related to project
resources. Volunteers would not be allowed to apply for grants until they had received this
training. This plan would address the principal areas of Volunteer dissatisfaction and should
enhance the effectiveness of the agency‟s small grants programs in Malawi.



7
 SPA: Small Project Assistance; PCPP: Peace Corps Partnership Program, VAST: Volunteer Activities Support and
Training.


Final Program Evaluation Report: Peace Corps/Malawi                                                       10
               We recommend:

                   6. That the country director ensure that grants-related
                      training and support align with the Peace Corps
                      approach to development.


Ministry officials were not sufficiently informed about Volunteer project goals and activities.

According to the Peace Corps‟ Programming and Training Guidance, “Partners must be
involved in the design process and must continue to be involved in the implementation and
evaluation process so Peace Corps projects have ownership by partners, continue to address local
and national priorities, implement activities that will be effective, and achieve results that will be
sustainable.”

Although, as we reported, ministry officials generally supported the Peace Corps mission and
programming in their sectors, they did not feel sufficiently informed about Volunteer goals and
activities. The officials we interviewed had not received any project documentation, such as
project plans or activity reports, in the previous two years. Several officials could not recall the
last time they had seen documentation or data on program operations from the Peace Corps. One
official stated, “Right now we hear that (Volunteers) have come and then that they have gone,
that‟s it.” Another official said he only learns about Volunteer activities by visiting them in the
field. The officials we met with also had not participated in any meetings with Peace Corps staff
or Volunteers to discuss project goals and activities and provide feedback.

Without having seen any recent programming data, officials could not verify that ministry
resources were effectively aligned with Peace Corps project activities. Officials saw a missed
opportunity to share best practices with the post while also learning from Volunteers. One
official noted, “We learn a lot from Volunteers as they work with us and interact with
communities. They impart a lot of knowledge.” Officials further believed that better
communication with the post would increase knowledge about and receptivity to the Peace Corps
program from senior ministers and encourage them to attend official Peace Corps functions.
Officials also expressed a sense of responsibility for Volunteers and wanted the assurance of
knowing what Volunteers were doing at their sites. The large size of the host country
contribution offers an additional incentive for PC/Malawi to inform partners about Volunteer
accomplishments, activities, and challenges.

Project Advisory Committees (PACs) are established by many Peace Corps posts to maintain the
involvement of key project stakeholders. A former Malawi staff member reported that PACs had
previously been established in Malawi but had not been sustained due to poor participation from
partners. Ministry officials welcomed opportunities to work more closely with Peace Corps staff
but acknowledged that in the past they have not always attended Peace Corps meetings.
Programming staff confirmed that scheduling meetings with busy officials and high rates of
turnover among ministry staff posed significant challenges for PACs. Nevertheless, ministry
officials, programming staff, and senior staff were in agreement that establishing PACs would
increase partner involvement and improve programming.



Final Program Evaluation Report: Peace Corps/Malawi                                                11
Senior staff discussed plans to increase partner involvement and awareness by implementing an
annual report to partners using VRT data, which is an objective they added to the 2013 IPBS.
This action would contribute to a goal in the agency‟s performance plan that 95 percent of posts
provide annual progress reports to their partners.


               We recommend:

                   7. That the country director and director of programming
                      and training establish project advisory committees.

                   8. That the country director provide an annual report to
                      project stakeholders.


Inconsistent and ineffective site preparation created challenges for Volunteers at the start of
their service.

According to the agency‟s site development criteria documented in MS 270, “Each post must
ensure that Volunteer sites, housing, and work assignments are appropriate and meet all Peace
Corps and post-established criteria…Each post must establish and apply a process for
developing, selecting, and approving sites…”

Data from the agency‟s 2011 annual Volunteer survey reflected growing PC/Malawi Volunteer
dissatisfaction with site development. The data indicated that 43 percent of respondents in
Malawi were minimally or not at all satisfied with site selection/preparation compared to the
global average of 29 percent reporting dissatisfaction. The percentage of PC/ Malawi Volunteers
expressing dissatisfaction in 2011 with site development increased from 24 percent in 2010.

In interviews, Volunteers reported housing and work-place problems that they believed would
not have occurred with effective site development. Eight of the Volunteers we interviewed,
almost half of the total, did not have adequate housing ready for them when they arrived at their
sites. Five of the Volunteers we interviewed reported that their communities had not been
expecting them at all. Seventy one percent of the Health Volunteers (5 of 7) we interviewed said
their partners either did not understand or did not support their work activities. Some Health
Volunteers felt unwelcome and resented by staff at health clinics and non-governmental
organizations. Additionally, we learned from staff that six of the eighteen Volunteers sworn-in in
May 2012, who were not included in our Volunteer sample, did not have housing ready for them.

Many of the problems faced by newly arriving Volunteers were caused by inconsistencies and
lapses in the post‟s site development activities. Staff reported that they did not follow consistent
procedures for developing, selecting, and approving sites. Some staff relied on memory and
experience to conduct site development activities. A review of the post‟s site development
documentation and site history files showed that site development criteria were out of date and




Final Program Evaluation Report: Peace Corps/Malawi                                                12
site history files were incomplete and poorly organized. Additionally, due to fuel shortages and
lack of funding, some site development activities scheduled in 2011 were canceled entirely.

The post‟s ineffective site development activities and lack of follow-through resulted in
inappropriate and potentially unsafe Volunteer housing and created work and integration
challenges at the onset of their assignments. In January 2012, staff received approximately nine
requests from Volunteers to change their sites. While post staff determined that not all of these
requests were the result of poor site development, six of the Volunteers we interviewed had
changed sites or initiated discussions with staff to change sites due to dissatisfaction with their
site placement.

In discussions, senior staff acknowledged that there was site development deficiencies and
described action taken to address them. In February 2012, staff implemented the agency‟s self
assessment tool, the Administrative Management Control Survey (AMCS), and identified site
development as an area of high risk. Staff added an objective to the post‟s IPBS to “identify and
refine existing documents, guidelines, forms and protocols to develop a comprehensive site
identification, selection, and preparation process that involves and creates „ownership‟ in the
communities.” In August 2012, the CD issued a memo to staff outlining essential elements for
site selection criteria and procedures. The full development and implementation of those
procedures should help to ensure that Volunteers start their service with safe, adequate living
accommodations and an opportunity to conduct meaningful work.


               We recommend:

                   9. That the country director ensure that procedures for
                      developing, selecting, and approving sites are
                      established and implemented, and that site development
                      activities are fully documented.


Inadequate site preparation reduced the impact of Peace Corps Response assignments.

The Peace Corps Response (PCR) program offers short-term, high-impact assignments to
experienced individuals. In Malawi, PCRVs are assigned for up to one year to district offices to
help the government of Malawi strengthen district-level management, program monitoring and
reporting to better respond to Malawi‟s HIV/AIDS epidemic. To meet these goals in a condensed
period of time, the PCR job description provides detailed job responsibilities, project
deliverables, and verifiable indicators. However, most of the PCRVs we interviewed were not
conducting the work outlined in their job descriptions.

Four PCRVs were interviewed and they all reported that they had struggled to find their niche in
district offices where they were placed. None of the PCRVs were working directly with their
assigned counterpart, the director of planning and development, and said this official was too
busy to collaborate with them and, in one case, unwilling to work with the Volunteer. Three of
the PCRVs said they were only able to find meaningful, productive work by establishing



Final Program Evaluation Report: Peace Corps/Malawi                                               13
contacts outside of their district offices. One Volunteer developed a project at a prison, another at
a hospital. Not only were some PCRVs not carrying out the work described in their job
descriptions, they were also unable to quickly establish project activities – an essential
component of short-term assignments. On average, it took the PCRVs we interviewed over three
months to get their projects started. One Volunteer, who was serving a nine-month assignment,
got a project up and running after six months at site.

While PCRVs and staff generally agreed that PCR assignments matched an area of need in
Malawi, essential site development activities were not adequately conducted at PCR sites.
PCRVs found that their assigned counterparts and other staff at the district offices were
unfamiliar with the specifics of their assignments. The assigned counterparts were not viable
counterparts and partner expectations had not been effectively established. In addition, none of
the PCRVs we interviewed had housing ready for them when they arrived at site. It took PCRVs
up to two months to secure housing, which further delayed their project activities. It should be
noted that two of the PCRVs we interviewed were placed in different sites after individuals at
their selected sites withdrew interest in receiving a Volunteer. Though these new sites had
received little or no site preparation, there were similar issues reported at the prepared sites.

The post‟s Peace Corps/Response coordinator acknowledged that the work activities of some
PCRVs did not align with their job descriptions and also that site development is an area that
could use improvement. Staff relied on site development procedures from the programming unit
that this evaluation has reported elsewhere in our report to be ineffective.

Effective host agency partnership and support is another programming challenge reported by
staff. A memorandum of understanding (MOU) is in place with the national ministry but not at
the district level, which poses a challenge because district-level officials typically move every
two to four years. To address these challenges, PCR staff has asked each district to develop a
three-year plan prior to receiving a Volunteer to increase host agency buy-in and mitigate the
impact of staff turnover. Site development improvements and increased buy-in from district-level
staff should increase the alignment of job descriptions with Volunteer work activities and reduce
project implementation delays.


               We recommend:

                   10. That the country director develop and implement
                       improved procedures for developing, selecting, and
                       approving Peace Corps Response program work sites.


Peace Corps Response qualifications have been adjusted to increase the size of the applicant
pool.

PCRVs contribute significantly to the post‟s efforts in HIV programming while also providing
important training and support to two-year Volunteers. The post plans to expand its PCR
program and to participate in the agency‟s Global Health Service Partnership by placing
qualified PCRVs at schools of medicine and nursing. During the third quarter of FY 2012 the


Final Program Evaluation Report: Peace Corps/Malawi                                               14
post requested nine PCRVs to be recruited and placed in Malawi. However, by the end of the
recruiting period, only two PCRVs had arrived in Malawi to fill those slots. PCR headquarters
staff reported that the post‟s mandatory recruiting criteria, which included a master‟s degree,
significantly reduced the size of the available applicant pool. Other difficulties impacted the
post‟s third quarter recruitment campaign, including the unexpected withdrawal of four invited
applicants and the recurring challenge of recruiting applicants during the third quarter due to the
scarcity of applicants before the end of the academic year.

The PCRV shortfall resulted in the post not meeting its goal to place one PCRV in each of
Malawi‟s local government districts and also jeopardized plans to expand the PCR program to 20
PCRVs in FY 2013 and to 28 in FY 2014. In a collaborative effort to increase the size of the
applicant pool, staff at the post and headquarters agreed to remove the mandatory master‟s
degree criteria. This educational criteria had not been requested by the host agency, and post
program managers did not have concerns that removing this criteria would reduce the
effectiveness of PCRVs. The PCRVs interviewed in the field also concurred that the master‟s
degree requirement was not essential to successful assignments.


               We recommend:

                   11. That the Peace Corps/Response peer coordinator
                       monitor the effectiveness of lowered qualifications
                       requirements and, as necessary, collaborate with the
                       Peace Corps Response office to further strengthen
                       recruitment campaigns.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including: staff-Volunteer communications; project and status report feedback; medical support;
safety and security support, including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP); post response to crime incidents; and the adequacy of the Volunteer living
allowance.

The evaluation determined that Volunteers were very satisfied with staff support in the areas of
safety and security, medical, and administrative support, which are discussed in more detail
below. In a number of other areas, the post struggled to provide adequate support and oversight
to Volunteers. Staff and Volunteers reported that Volunteers were disconnected from the office
in Lilongwe, felt abandoned at their sites, and had become discouraged and demoralized.
Additionally, staff including senior leadership at post had not set clear expectations for
performance, and as a result, Volunteer professionalism had eroded and some Volunteers had
stopped taking their assignments seriously. Our findings and analysis of these issues, along with
recommendations for corrective action follow.




Final Program Evaluation Report: Peace Corps/Malawi                                              15
A review of agency data confirmed that Volunteer satisfaction had trended downwards during
the past few years. The rate of Volunteer resignations can be viewed as an indicator of Volunteer
satisfaction, and the resignation rate in Malawi saw an increase from 2009 through the third
quarter of 2012 even as regional and global rates declined. 8

                          Table 1. Rate of Volunteer Resignations in Malawi
              10.0%
                9.0%
                8.0%
                7.0%
                6.0%
                                                                                              Malawi
                5.0%
                                                                                              Africa
                4.0%
                                                                                              World
                3.0%
                2.0%
                1.0%
                0.0%
                           2008        2009        2010         2011      Q3 2012

                  Source: data compiled by the Office of Strategic Information, Planning and Research

The agency‟s annual Volunteer survey, which was conducted in Malawi from June-
August 2011, had a response rate of only 46 percent compared to the average global
response rate of 86 percent. Senior staff at the post viewed the low response rate as an
indicator of poor morale. Volunteers who completed the survey indicated above
average levels of dissatisfaction with multiple areas of Volunteer support, which can
be viewed in Table 2 below.9




8
 The agency defines a resignation as the voluntary exit of the Volunteer for any reason the Volunteer offers, if any.
9
 All responses are to the survey question, "How satisfied are you with the following support provided by in-country
Peace Corps staff?"


Final Program Evaluation Report: Peace Corps/Malawi                                                               16
           Table 2. Volunteer Levels of Dissatisfaction with Key Areas of Staff
                                     Support
               60%

               50%

               40%

               30%

               20%

               10%
                                                                                                Malawi
                0%                                                                              Global




             Source: data compiled by the Office of Strategic Information, Planning and Research

Since their arrival in Malawi towards the end of 2011, senior staff have identified and addressed
a number of weaknesses in Volunteer support and Volunteers interviewed in our evaluation
reported significant improvements due to measures taken. Volunteer comments included:

       “[Staff support] dramatically changed with the new CD…I now have more face time with staff.”

       “[Senior staff] came in as a strong team identifying key areas that needed to be improved and it‟s
       very apparent they have been working on that.”

       “Leadership and support have drastically improved since [senior staff] arrived.”

       “[Senior staff] are taking seriously the issues that Volunteers have been presenting and they have a
       vision of what we can be and seriously moving forward on that.”

Medical Unit Support. The post‟s medical unit was a highlight of Volunteer support.
Interviewed Volunteers were very satisfied with the medical support provided by two full time
PCMOs and a medical assistant. The agency‟s annual survey data from 2011 showed high rates
of Volunteer satisfaction with the quality of interactions and communications with medical unit
staff. Malawi had the highest rate in the region for Volunteer satisfaction with medical support.

SSC Support. The support provided by the post‟s SSC was another area of satisfaction
identified by Volunteers. The agency‟s annual survey data from 2011 showed high rates of
Volunteer satisfaction with the quality of interactions and communications with the SSC, and
Volunteer satisfaction with safety support scored well compared to regional averages. Volunteers


Final Program Evaluation Report: Peace Corps/Malawi                                                           17
were placed on alert following the sudden death of the president in April 2012, and staff at the
embassy and Peace Corps safety and security staff were satisfied with the post‟s emergency
response mechanisms. Eighty eight percent (15 of 17) of interviewed Volunteers felt adequately
familiar with the post‟s EAP. Volunteers were satisfied with the handling of safety and security
incidents by staff at post, and Embassy staff reported that security incidents are handled
sensitively, quickly, and effectively. Comments from Volunteers included:

       “[The SSC] is really good. I know that he would get me out of a situation, he's our superhero. I
       was having trouble at the police station and I called him and he resolved it.”

       “[The SSC] is great at his job and cares about us. He goes out of his way to know each Volunteer
       which is an important aspect of his job. He‟s very available.”

       “[The SSC] is proactive and on top of things. He‟s good at chatting with Volunteers and humble
       but he'll tell it to you straight. I was almost arrested and he got me out of it.”

       “[The SSC] is very on point. This house was previously broken into and we've worked together
       and he's responded very aggressively to the (safety) issues.”

Administrative Support. Shortly after arriving in December 2011, the DMO conducted a
survey that led to a 45 percent living allowance increase. A 10 percent emergency living
allowance increase went into effect in August 2011 and another increase was expected in the
summer of 2012. Ninety-three percent of the Volunteers we interviewed were satisfied with their
new living allowances. Volunteers reported strong satisfaction with administrative support,
which received the highest staff support rating in our survey. Volunteers were satisfied with staff
responsiveness to their administrative needs and Volunteers were encouraged by the post‟s
readiness to respond to the devaluation of Malawi‟s currency that occurred in May 2012.
Comments from Volunteers included:

       “I was in office the morning [devaluation] happened. They were ready for it and we were not used
       to that. We spent six-nine months trying to address financial issues and couldn‟t get anything
       taken care of. [The DMO] also sent an email to explain what was going on. It was above and
       beyond.”

       “[The DMO] is the remedy this country needed. He‟s proactive, gets things done, sends out texts,
       is totally on top of things…he has our health and happiness and safety in mind. These guys (DMO
       and CD) are turning PC/Malawi around.”

       “I think there's been such a change here. One of the big changes is the increase of our living
       allowance. [The DMO] responds quickly and really listens to Volunteers. He's working hard to
       make Malawi work.”

Volunteer Advisory Committee. The role of the post‟s Volunteer Advisory Committee (VAC)
was revised prior to our evaluation fieldwork. Previously, VAC meetings were attended by a
large number of staff who gave reports and updates and fielded questions from VAC members.
One staff commented that attending the VAC meeting “was like meeting the board of directors.”
As part of the revisions, the CD and VAC members signed an MOU to shift the VAC‟s emphasis
from policy involvement to advocacy for the Volunteer community. Attendance at VAC
meetings has been reduced to the CD and several senior staff with unit representatives attending
as needed. This shift in focus aligns with guidance found in Characteristics and Strategies of a



Final Program Evaluation Report: Peace Corps/Malawi                                                       18
High Performing Post, which states the VAC should be an advisory group that meets just with
the CD or with the CD and selected senior staff. VAC members supported the new MOU, and
the Volunteers that we interviewed were generally satisfied with VAC activities.

Volunteers Supporting Volunteers. The post‟s peer support network, Volunteers Supporting
Volunteers (VSV), is a support function that was improved prior to our evaluation fieldwork.
Seventy-five percent (12 of 16) of the interviewed Volunteers were satisfied with VSV
operations. Numerous Volunteers commented that in the past the VSV was weakened by
inconsistent support procedures and a reputation for party planning rather than providing
support, but that it had been strengthened following efforts by the current VSV members to
overhaul the group‟s structure and goals. Volunteers reported positive and supportive
interactions with VSV members through phone calls, text messages, and site visits.

While the post has already taken successful steps to strengthen Volunteer support and oversight,
the evaluation did uncover a few areas that require additional management attention. The
remainder of this section provides additional information about these topics as well as a further
review of key Volunteer support issues.

Poor staff communication affected Volunteer morale and effectiveness.

According to Characteristics and Strategies of a High Performing Post, effective staff
communication with Volunteers calls for “The country director and staff [to] communicate
regularly and openly with Volunteers through a variety of means. They convey useful technical
and program information and policies, and give encouragement, constructive suggestions, and
admonitions, as appropriate. They also actively seek input from the Volunteers.”

Interviews with staff and Volunteers revealed that staff at the post communicated poorly with
Volunteers. Volunteers reported that staff were not proactive in contacting them and that they
often left messages to staff that were unreturned and required repeated follow-up
communications from them. Volunteers were also dissatisfied with the quality of staff
communications, particularly the lack of follow-up communications and responses from staff,
which Volunteers described as unhelpful. Volunteers did not feel they received sufficient
technical guidance from staff and Volunteers described some support staff as aloof or reticent to
listen to their challenges and experiences. Volunteers stated that staff was not encouraging and
failed to set expectations for professionalism and standards of behavior.

Our findings were consistent with data in the agency‟s FY 2011 annual Volunteer survey, which
reflected that Volunteers had higher than average rates of dissatisfaction with their interactions
with the CD, APCDs, and administrative staff. Thirty-one percent of the PC/Malawi survey
respondents reported their interactions with staff were “considerably” or “exceptionally”
stressful, compared to the much lower global average of seven percent.

Staff also reported that some staff members were reluctant to admonish Volunteers for breaking
rules and policies. Due to the lack of proactive communications from staff and the poor quality
of follow up to their communications, Volunteers did not believe that staff was interested in their
feedback.



Final Program Evaluation Report: Peace Corps/Malawi                                              19
Several elements of post operations and program management contributed to the poor quality of
staff communications with Volunteers. The post‟s prior management structure, which
concentrated decision-making at the top of the management team and disempowered support
staff, discouraged staff from supervising Volunteers and weakened Volunteer support roles. The
poor delineation of APCD and PA duties and responsibilities confused staff/Volunteer lines of
communication. Staff lost key opportunities to communicate with Volunteers when site visits
were canceled and abbreviated. Staff did not take advantage of opportunities to convey useful
technical information to Volunteers through feedback to their quarterly reports.

Malawi‟s poor communications infrastructure created additional staff-Volunteer communications
challenges. Many Volunteers did not have Internet access at their sites and Internet access could
be slow with frequent disruptions. The quality of mobile phone cellular service was poor in much
of the country and calls were blocked or interrupted by network problems. Text messages that
remained unopened for three days were automatically deleted by the service provider.

The impact on Volunteers of poor staff communications was significant. Some Volunteers chose
to avoid interacting with staff or visiting the office. Independently solving the problems
encountered is important for successful Volunteer service. However, due to the poor quality or
frequency of communication, Volunteers felt disconnected and became discouraged and
struggled to take their assignments seriously. Volunteers‟ comments included:

       “I kind of got used to figuring it out on my own and being independent. You have to be or else
       you would be frustrated.”

       “When we arrived the Volunteers told us to relax and it became apparent that there wasn't much
       seriousness. That goes in hand with support when what you are doing is not meaningful…I had to
       figure everything out on my own.”

       “I communicate less with the office because it seems like it‟s not beneficial.”

       “I have not felt supported at all. If you are struggling you have to keep that to yourself or you will
       feel worse when you go to the office, we are working against the office.”

Volunteer professionalism declined due to the lack of effective supervision and expectation
setting from staff. Incidents were reported of Volunteers behaving poorly at the ambassador‟s
residence and during other events with U.S. embassy officials, host country officials, and other
members of the U.S. mission in Malawi. While embassy staff were pleased overall with the
quality of Volunteers, they were appalled by a few incidences of unacceptable Volunteer
behavior. The OIG found that many Volunteers we interviewed were embarrassed by the
behavior of their peers.

Improving staff communications with Volunteers has been a major focus of the post‟s current
senior staff. Staff implemented a weekly news announcement that is distributed to all Volunteers.
Support staff was asked to acknowledge receipt of messages and improve its response times, and
its cell phone minutes were increased to allow for longer conversations with Volunteers when
necessary. Senior staff is developing distinct roles for PAs to establish clear lines of
communication. The staff also described plans to publish schedules for staff site visits in the



Final Program Evaluation Report: Peace Corps/Malawi                                                             20
newsletter to increase Volunteer awareness of staff availability. Senior staff has placed a priority
on site visits and quarterly report feedback. Due to the critical importance of effective
communications, the post should make every effort to ensure that these steps are effective at
establishing regular, open, and effective communications with Volunteers.


               We recommend:

                   12. That the country director survey Volunteers to assess
                       the effectiveness of staff communications and make
                       adjustments, if necessary.


Volunteer site visit procedures were not adequately performed.

According to the post‟s site visit policies, each Volunteer should receive at least two site visits
from programming staff during their service, the first occurring after four-ten months at site. Site
visit policies also require that Volunteers are notified prior to the visit, that visits should be two
to three hours in duration, that staff provides Volunteers with feedback regarding their
performance, and that staff file site visit reports upon return to office. Interviews with Volunteers
and staff confirmed that these site visit policies were not being followed.

Although all of the Volunteers interviewed had been at their sites longer than 10 months, two
had not received a site visit from programming staff and only five Volunteers reported
programming staff visited for at least two hours. Most Volunteers reported programming site
visits were 15 to 45 minutes in duration. Volunteers also noted that site visits were unannounced
and staff did not provide feedback regarding Volunteers‟ performance. A review of 16 files from
the sampled Volunteers revealed that only seven files included site visit reports.

Insufficient funds to carry out site visits, combined with fuel shortages and poor planning, caused
the cancellation of some site visits in 2011. Staff reported that they nevertheless made an effort
to visit as many Volunteers as possible when they could travel but this resulted in unannounced
and abbreviated visits that Volunteers found less useful. Only 50 percent of the Volunteers we
interviewed were satisfied with site visits from programming staff.

Senior staff has taken some steps to improve site visits. The DMO developed a flexible quarterly
budget plan for staff travel to ensure that funding is available for site visits and a site visit
calendar will be published in the newsletter to alert Volunteers to travel plans.


               We recommend:

                   13. That the post carry out site visits to each Volunteer
                       according to its site visit policy.




Final Program Evaluation Report: Peace Corps/Malawi                                                21
Volunteers could not access their Emergency Action Plan.

According to the agency‟s safety and security policy contained in the MS 270.8.1, “Each post
must develop and maintain a detailed EAP that addresses the most likely emergency situations
that would impact Peace Corps personnel and operations.” The policy states that the EAP must
be revised annually and tested regularly.

Only 33 percent (five of 15) of the Volunteers we interviewed at their homes could easily locate
a copy of the EAP, and not all of the copies that could be located were recent. The inability to
access essential and up-to-date guidance and direction could pose a risk to Volunteers‟ safety
should the EAP be activated.


                 We recommend:

                      14. That the country director ensure that all Volunteers
                          have access to the post’s Emergency Action Plan at
                          their sites.


Site locator forms were missing essential information.

Site locator forms (SLFs) contain information about the Volunteer‟s site, including
communication and logistical information that could be needed in an emergency. Each Volunteer
in Malawi is required to complete a SLF that forms part of the post‟s emergency communication
system. According to Peace Corps safety and security standard operating procedures, the SSC
should coordinate with appropriate staff to ensure that SLFs are reviewed during site visits and a
system is in place for the review and improvement of maps to Volunteer residences.

A review of SLFs submitted by Volunteers in our interview sample revealed that two Volunteers
had changed sites without submitting updated SLFs. The review also found incomplete contact
information for local police and medical services. While traveling to Volunteers‟ sites, OIG
reviewed SLFs, which include maps and directions, for accuracy. Only 23 percent (three of 13)
of the reviewed SLFs contained sufficient information to locate Volunteers.10 Missing or
incomplete SLFs and inadequate maps and directions could pose a risk to Volunteers‟ safety in
the event that contact cannot be established using designated communications means. Staff
reviews of SLFs could mitigate this risk.


                 We recommend:

                      15. That the safety and security coordinator ensure that site
                          locator forms are reviewed during site visits and a


10
  The evaluator traveled by car and reviewed maps and directions to 13 sites; a married couple shared the same
SLF, which was counted only once for this exercise.


Final Program Evaluation Report: Peace Corps/Malawi                                                              22
                       system is in place to review and improve maps to
                       Volunteer residences when necessary.
TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

       training adequacy;
       planning and development of the training life cycle;
       staffing and related budget.

The evaluation concluded that the training program in Malawi is generally effective at preparing
Volunteers for their service though there are several areas for improvement. The following table
summarizes Volunteers‟ perceptions on the effectiveness of their training.

                   Table 3. Volunteer Perceptions of Training Effectiveness
                            Area             Percent of Volunteers    Average
                                             Who Rated Training       Rating
                                                  Favorably
                    PST Language                     100%                4.0
                    PST Culture                      82%                 3.5
                    PST Safety &
                                                    100%                 4.2
                    Security
                    PST Medical                     100%                 4.2
                    PST Technical                   59%                  2.8
                    HIV/AIDS                        50%                  2.9
                    Grants                          47%                  2.5
                       Source: OIG interviews.

As indicated in the table, Volunteers were satisfied with the local language, safety and security,
and medical portions of PST. Volunteers were also, for the most part, satisfied with cultural
training. Training areas that require management attention include technical training, HIV/AIDS
training, and grants training.

Training staff reported that financial constraints have been a significant challenge for the training
program. The training budget was cut in 2011 and those cuts reduced funding to several key
areas of PST, including Training of Trainers (TOT), food supplies for host families, and staff
travel. Training staff were satisfied with adjustments made by senior staff to include them in the
budget process.

At the time fieldwork was conducted for this evaluation, staff was in the process of incorporating
the agency‟s FITU curriculum into the post‟s training program. Staff reported that some local
training staff struggled with the high level of detail found in the FITU materials and training staff
were considering lengthening TOT. Nonetheless, staff was optimistic that FITU would enhance
the training program.




Final Program Evaluation Report: Peace Corps/Malawi                                               23
PST Host Families. During PST all Volunteers live with a host family located near the training
site. One hundred percent of the Volunteers we interviewed were satisfied with their host family
experience and the average response rating was 4.6. Volunteers stated that their host family
members provided effective cross-cultural and local language training. Some Volunteers were
trained in a different local language than their host family but they still found value in the cross-
cultural experience and the support their host families provided during the challenging training
program.

Diversity Training. The post‟s diversity committee, which is comprised of Volunteers and staff,
worked with the DPT to implement significant improvements to the post‟s diversity program.
After arriving in Malawi towards the end of 2011, the DPT helped the diversity committee
establish bylaws and a mission statement and develop and implement training objectives and
lesson plans for diversity training sessions. In interviews Volunteers noted significant
improvement to the diversity training program. Diversity training for staff is an ongoing area of
need and the post made plans in its 2011 IPBS to request a diversity trainer to come to Malawi to
provide training for staff and Volunteers.

Technical and HIV/AIDS training did not adequately prepare Volunteers for work activities.

MS 201, “Eligibility and Standards for Peace Corps Volunteer Service,” states that a trainee must
demonstrate technical competence, which is defined as “proficiency in the technical skills
needed to carry out the assignment” by the end of training. Volunteers we interviewed did not
consider PST technical training or HIV/AIDS training sufficient to effectively carry out their
work activities.

Technical Training. Only 59 percent (ten of 17) of interviewed Volunteers rated PST technical
training favorably. This low rating is consistent with data from the agency‟s 2011 annual
Volunteer survey in which PC/Malawi Volunteers rated technical training lower than the global
average. Education Volunteers felt the least prepared as indicated in the table below.

           Table 4. Responses on Perceptions of Technical Training Effectiveness
                Sector       Percent of Volunteers Rating “Average Average
                                        Effectiveness” or Better            Rating for
                                                                            Effectiveness
            Education                              50%                           2.4
            Health                                 57%                            3
            NRM                                   100%                           3.3

Volunteers indicated several areas in need of improvement including more focused and better-
organized sessions and better-trained technical trainers. Education Volunteers said their technical
trainers were new and inexperienced which resulted in poor training delivery. Training staff
acknowledged that high turnover with technical trainers had been an ongoing challenge. Not only
were all the education technical trainers new in 2011, but their training was reduced by several
days due to budget cuts.

Training staff had begun to implement the agency‟s new FITU global technical curricula, which
was the focus for technical training improvements. Senior staff described plans to further


Final Program Evaluation Report: Peace Corps/Malawi                                                24
improve the delivery of technical training by reducing the role of contracted trainers and
increasing the participation of APCDs, who have not been involved in technical training.
Training staff agreed that the participation of APCDs would increase the quality of technical
training.

HIV/AIDS Training. Only 50 percent (eight of 16) of the Volunteers we interviewed rated
HIV/AIDS training favorably. Volunteers were dissatisfied with the focus of the training
sessions. Some Volunteers commented that the training was too technically advanced and failed
to cover basic concepts such as how the disease is transmitted. Others felt that the training was
pertinent for Health Volunteers, though less feasible in schools or more rural NRM sites.
Additionally, Volunteers‟ different needs, based on their site placements and prior knowledge,
skills, and abilities relative to HIV/AIDS, were not sufficiently accommodated in the training.

Staff worked to improve the HIV/AIDS curriculum in 2012 and Volunteers who assisted with a
PST in March 2012 reported that the HIV/AIDS training contained significant improvements. At
the time fieldwork was conducted for this evaluation, staff had not yet reviewed training results
to assess those training improvements.


               We recommend:

                    16. That the director of programming and training
                        incorporate the participation of associate Peace Corps
                        directors into technical training.

                    17. That the director of programming and training monitor
                        the effectiveness of technical training and make
                        appropriate improvements.

                    18. That the director of programming and training monitor
                        the effectiveness of HIV/AIDS training and make
                        appropriate improvements.


Grants training did not adequately prepare Volunteers to use Peace Corps’ small grants
programs.

Characteristics and Strategies of a High Performing Post states:

       To ensure that the [grant] process is done right and that dependencies aren‟t created, Volunteers must
       understand how to generate resources and promote activities as a project or community enabler, rather than
       as the means to a gift that the organization or community begins to rely on or expect. This should be
       discussed initially during PST and then during an early project design and management (PDM) IST that
       will provide detailed training on how to help a community access resources.

Only 47 percent (eight of 17) of the Volunteers we interviewed rated grants training favorably.
As we demonstrated in the “Programming” section of this report, training failed to discuss areas



Final Program Evaluation Report: Peace Corps/Malawi                                                            25
of concern related to outside funding, such as corruption and lack of sustainability. Volunteers
also reported that training did not provide sufficient instruction on how to effectively complete
grants applications. As a result, Volunteers were reluctant to submit grant proposals and poorly
prepared to do so.

Senior staff related plans to implement PDM training, which Volunteers would be required to
complete before they could submit grant proposals. The agency‟s PDM training manual
underscores the importance of focusing training sessions on topics such as resource identification
and funding sources. The completion of PDM training would ensure that Volunteer‟s are more
thoroughly prepared to consider the use of grants in their communities and increase the impact
and effectiveness of the agency‟s small grants programs in Malawi.


               We recommend:

                   19. That the country director ensure that Volunteers are
                       adequately trained to use Peace Corps’ small grants
                       programs.


PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF

Another objective of this post evaluation is to answer the question “is the post able to adequately
administer the PEPFAR program, support Volunteers, and meet its PEPFAR objectives?” To
answer this question, we evaluate:

       Whether the post is implementing its PEPFAR objectives as laid out in the annual
       implementation plan.
       Relationships between the post and coordinating partners.
       Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling related
       challenges.

The post uses PEPFAR funds to fully support the costs of PCRVs, partially support two-year
Volunteer costs, and for HIV/AIDS training for all Volunteers. Staff and Volunteers reported
that the post is implementing its PEPFAR objectives and Volunteers are fulfilling HIV/AIDS-
related assignments and handling related challenges. However, our evaluation revealed
weaknesses with the post‟s relationships with key PEPFAR partners and its ability to report HIV-
related results. The collection of sufficient information on the PCV‟s PEPFAR-funded activities
is an important aspect of program monitoring and reporting.

The post did not effectively collect HIV-related data.

As part of the annual PSR process, the post must submit an HIV/AIDS Initiative report that helps
the agency support the initiative and provides data for agency-wide aggregation included in the
agency‟s Performance and Accountability Report (PAR).




Final Program Evaluation Report: Peace Corps/Malawi                                              26
Only eight of 14 Volunteers who conducted HIV-related activities reported those activities on
their VRF. This under-reporting was caused by a combination of systemic data collection and
reporting weaknesses, which we reviewed in the “Management Controls” section of this report,
as well as the fact that the VRT did not contain specific HIV indicators. In order to meet agency
reporting requirements, staff was required to scan a VRT printout for relevant data and contact
Volunteers to ask if their activities were HIV-related.

PCRVs, who work towards specific HIV-related goals, were also not reporting their activities on
VRFs. Only one of the four PCRVs we interviewed had completed a VRF. PCRVs reported that
the VRFs had not been tailored to their specific activities, and they were unsure how to report
them in the VRF.

The post‟s difficulties collecting HIV-related data caused under-reporting and reduced the
quality and accuracy of agency-wide aggregated data. Incomplete data also hinders the agency‟s
ability to support the HIV/AIDS initiative. This under-reporting also made it challenging for staff
at the post to demonstrate the impact of the post‟s efforts to address HIV-related issues and
obtain the necessary buy-in from key PEPFAR partners. In an effort to strengthen the post‟s HIV
programming, senior staff described plans to improve HIV performance reporting by adding HIV
indicators to the post‟s reporting tool and integrating PCR goals and objectives into the health
project framework.

               We recommend:

                   20. That the country director ensure that HIV-related
                       performance data is effectively collected.

                   21. That the country director ensure that Peace Corps
                       Response activities are incorporated into the Volunteer
                       reporting tool.


The post has taken steps to more effectively collaborate with PEPFAR country team members.

Although PEPFAR budgets are reviewed and approved by the agency, posts must coordinate
with country teams to request PEPFAR funds from the Office of U.S. Global AIDS Coordinator
(OGAC). Country teams are comprised of agencies such as USAID and HHS that often submit
funding requests that far exceed Peace Corps‟. Staff at the U.S. Embassy in Malawi reported that
the post had missed important country team meetings which reduced the post‟s leverage with the
country team. The staff commented, “There are a lot of strong personalities in these agencies and
for Peace Corps to have a say they have to be involved and be active. If they are passive they
won‟t be considered legitimate players.” Staff at the post acknowledged that poor collaboration
with other agencies had been a weakness of the post‟s HIV program.

The post‟s PEPFAR FY 2012 funding request was 1.3 million dollars. However, the post was
allocated less than $700,000, which was not sufficient to fully implement the post‟s PEPFAR-
related activities. Post staff speculated that the lower allocation resulted from the lack of



Final Program Evaluation Report: Peace Corps/Malawi                                             27
participation with the country team and an inability to demonstrate results. One staff reported
“There was a bad vibe in the [country team] meetings, like we just want money…a comment I
heard was that Peace Corps is only interested in photo ops.”

Senior staff at the post has increased the post‟s presence at PEPFAR country team meetings. The
CD attended country team meetings and shared plans to strengthen HIV programming and
improve the post‟s HIV-related data collection and reporting processes. The country team
responded positively and increased the post‟s funding allocation to just over $1 million. At the
time fieldwork was conducted for this evaluation, the post was awarded an additional $600,000
in PEPFAR funds, bringing the total funding beyond the post‟s initial request. Staff at the
embassy commented that the additional funds indicated confidence from the country team that
the post‟s PEPFAR program was strengthening.




Final Program Evaluation Report: Peace Corps/Malawi                                               28
                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. T he Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Malawi on March 22,
2012. For post evaluations, we use the following researchable questions to guide our work:

       To what extent has post developed and implemented programs to increase host country
       communities‟ capacity?
       Does training prepare Volunteers for Peace Corps service?
       Has the post provided adequate support and oversight to Volunteers?
       Are post resources and agency support effectively aligned with the post‟s mission and
       agency priorities?
       Is the post able to adequately administer the PEPFAR program, support Volunteers, and
       meet its PEPFAR objectives?

At the onset of this evaluation there were 12 PCRVs in Malawi and we added interviews with
PCR staff and PCRVs to the scope of our evaluation. There were also 37 trainees in PST at the
onset of this evaluation. These trainees swore-in as Volunteers May 2, 2012. This group of
Volunteers had only been at site for one month during our field work and, though we did meet
briefly with two Volunteers from this group, they were not included in the sample of Volunteers.

The evaluator conducted the preliminary research portion of the evaluation March 21-May 18,
2012. This research included review of agency documents provided by headquarters and post
staff; interviews with management staff representing the Africa region, the office of Overseas
Programming and Training Support (OPATS), the Office of Global Health and HIV (OGHH),
the Office of Safety and Security (SS), and PCR; and inquiries to the Office of Volunteer
Support, Office of Intergovernmental Affairs and Partnerships, the Office of Private Sector
Initiatives, and the Office of Volunteer Recruitment and Selection.

In-country fieldwork occurred from May 21-June 8, 2012, and included interviews with post
senior staff in charge of programming, training, and support; the U.S. Deputy Chief of Mission;
the embassy assistant regional security officer; the embassy PEPFAR coordinator, and host
country government ministry officials. In addition, we interviewed a stratified judgmental



Final Program Evaluation Report: Peace Corps/Malawi                                              29
sample of 17 Volunteers (20 percent of Volunteers serving at the onset of our evaluation) based
on their length of service, site location, project focus, gender, age, marital status, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The evidence,
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.


                              INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 17 Volunteers, four PCRVs, 15
staff members in-country, and 19 representatives from Peace Corps headquarters in Washington
D.C. and Africa, the U.S. Embassy in Malawi, and key host country ministry officials. The
analysis of these ratings provided a quantitative supplement to Volunteers‟ comments, which
were also analyzed. For the purposes of the data analysis, Volunteer ratings of “3” and above are
considered favorable. In addition, Volunteer interviews occurred at the Volunteers‟ homes,
which we inspected using post-defined site selection criteria. The period of review for a post
evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Malawi; the Volunteer sample was selected to reflect these demographics.

                              Table 5. Volunteer Demographic Data
                                                                   Percentage of
                               Project
                                                                    Volunteers
             Education                                                 38%
             Environment                                               23%
             Health                                                    39%
                                                                   Percentage of
                               Gender
                                                                    Volunteers
             Female                                                    55%
             Male                                                      45%
                                                                   Percentage of
                                 Age
                                                                    Volunteers
             25 or younger                                             47%
             26-29                                                     30%
             30-49                                                     21%
             50 and over                                                2%
               Source: PC/Malawi Volunteer roster.
               Note: Percentages may not total 100 percent due to rounding.




Final Program Evaluation Report: Peace Corps/Malawi                                                 30
At the time of our field visit, PC/Malawi had 33 positions staffed.11 The post also employs
temporary staff/contractors to assist with PST. Given the time of our visit, these positions were
not staffed. We interviewed 15 staff members.

                 Table 6. Interviews Conducted with PC/Malawi Staff Members
                               Position                       Status   Interviewed
       Country Director                                                    USDH                    X
       Director of Programming and Training (vacant)                       USDH                    X
       Director of Management and Operations                               USDH                    X
       Executive Assistant                                                 PSC*                    X
       Safety and Security Coordinator                                     PSC                     X
       Peace Corps Medical Officer (2)(one interviewed)                    PSC                     X
       Medical Assistant                                                   PSC
       Associate Peace Corps Director (3)                                  PSC                     X
       Training Manager                                                    PSC                     X
       HIV Program Coordinator                                             PSC                     X
       Peace Corps Response Coordinator                                    PSC                     X
       Program Assistant/PCPP Coordinator                                  PSC                     X
       Program Assistant/IRC Manager                                       PSC                     X
       Program Assistant/SPA Coordinator                                   PSC                     X
       Language Cross-cultural Coordinator                                 PSC
       Financial Assistant                                                 FSN*
       Cashier                                                             FSN
       IT Specialist                                                       PSC
       Volunteer Support Assistant                                         PSC
       General Services Officer                                            PSC
       Receptionist                                                        PSC
       General Services Assistant                                          PSC
       Head Driver/Mechanic                                                PSC
       Driver (5)                                                          PSC
       Janitor (2)                                                         PSC
       Gardener                                                            PSC
        Data as of June 2012. *PSC is personal services contractor; FSN is foreign service national.

Nineteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

             Table 7. Interviews Conducted with PC/Headquarters & Global Staff,
                           Embassy Officials, and Ministry Officials
                              Position                          Organization
          Regional Director                                           PC/headquarters/AF region
          Chief of Operations                                         PC/headquarters/AF region
          Chief of Programming and Training                           PC/headquarters/AF region
          Country Desk Officer                                        PC/headquarters/AF region

11
  The DPT position was vacant at the time of our field visit. The former DPT, who departed the post for medical
reasons in April 2012, was interviewed at PC/headquarters in Washington.


Final Program Evaluation Report: Peace Corps/Malawi                                                               31
         Chief Administrative Officer                 PC/headquarters/AF region
         Regional Security Advisor                    PC/headquarters/AF region
         Programming and Training Specialist          PC/headquarters/OPATS
         Chief of Programming and Training            PC/headquarters/OGHH
         Programming Specialist                       PC/headquarters/PCR
         Recruitment and Placement Specialist         PC/headquarters/PCR
         Peace Corps Safety and Security Officer      PC/headquarters/SS/AF
         Former PC/Malawi USDH                        PC/headquarters
         Deputy Chief of Mission                      U.S. Embassy in Malawi
         Assistant Regional Security Officer          U.S. Embassy in Malawi
         PEPFAR Coordinator                           U.S. Embassy in Malawi
         Director                                     Ministry of Forestry
         Chief Education Officer                      Ministry of Education, Science
                                                      and Technology
         Director, Sector-Wide Approach               Ministry of Health
         Director, Parks and Wildlife                 Ministry of Information and
                                                      Tourism
              Data as of June 2012.




Final Program Evaluation Report: Peace Corps/Malawi                                    32
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

   1. That the regional chief of administrative operations ensure that the post‟s operating plan
      funds essential operations with appropriated funds rather than host country contributions.

   2. That the country director and director of programming and training ensure that
      programming staff work roles are clearly delineated and aligned with position
      descriptions.

   3. That the director of programming and training ensure that project frameworks are aligned
      with the Volunteer Reporting Forms.

   4. That the director of programming and training ensure that Volunteers are adequately
      trained to collect performance data and record it on their reporting form.

   5. That the director of programming and training require programming staff to provide
      timely and substantive feedback to Volunteers who submit a Volunteer reporting form.

   6. That the country director ensure that grants-related training and support align with the
      Peace Corps approach to development.

   7. That the country director and director of programming and training establish project
      advisory committees.

   8. That the country director provide an annual report to project stakeholders.

   9. That the country director ensure that procedures for developing, selecting, and approving
      sites are established and implemented, and that site development activities are fully
      documented.

   10. That the country director develop and implement improved procedures for developing,
       selecting, and approving Peace Corps Response program work sites.

   11. That the Peace Corps/Response peer coordinator monitor the effectiveness of lowered
       qualifications requirements and, as necessary, collaborate with the Peace Corps Response
       office to further strengthen recruitment campaigns.

   12. That the country director survey Volunteers to assess the effectiveness of staff
       communications and make adjustments, if necessary.

   13. That the post carry out site visits to each Volunteer according to its site visit policy.




Final Program Evaluation Report: Peace Corps/Malawi                                                33
   14. That the country director ensure that all Volunteers have access to the post‟s Emergency
       Action Plan at their sites.

   15. That the safety and security coordinator ensure that site locator forms are reviewed
       during site visits and a system is in place to review and improve maps to Volunteer
       residences when necessary.

   16. That the director of programming and training incorporate the participation of associate
       Peace Corps directors into technical training.

   17. That the director of programming and training monitor the effectiveness of technical
       training and make appropriate improvements.

   18. That the director of programming and training monitor the effectiveness of HIV/AIDS
       training and make appropriate improvements.

   19. That the country director ensure that Volunteers are adequately trained to use Peace
       Corps‟ small grants programs.

   20. That the country director ensure that HIV-related performance data is effectively
       collected.

   21. That the country director ensure that Peace Corps Response activities are incorporated
       into the Volunteer reporting tool.




Final Program Evaluation Report: Peace Corps/Malawi                                               34
                      APPENDIX A: LIST OF ACRONYMS
 AMCS                    Administrative Management Control Survey
 APCD                    Assistant Peace Corps director
 CCBI                    Community Content Based Instruction
 CDSS                    Community Day Secondary Schools
 CD                      Country Director
 DMO                     Director of Management Operations
 EAP                     Emergency Action Plan
 FITU                    Focus In/Train Up
 HCC                     Host Country Contributions
 IG                      The Inspector General
 IPBS                    Integrated Planning and Budget System
 MOU                     Memorandum of Understanding
 MS                      Peace Corps Manual Section
 OIG                     Office of Inspector General
 OGAC                    Office of U.S. Global AIDS Coordinator
 OGHH                    The Office of Global Health and HIV
 OPATS                   Overseas Programming and Training Support
 PA                      Program Assistant
 PAC                     Project Advisory Committees
 PAR                     Performance and Accountability Report
 PCR                     Peace Corps Response
 PCRV                    Peace Corps Response Volunteers
 PDM                     Project Design and Management
 PEPFAR                  President‟s Emergency Plan for AIDS Relief
 PLWA                    People Living with HIV/AIDS
 PSR                     Project Status Reporting
 PST                     Pre-service Training
 SLF                     Site locator forms
 SS                      The Office of Safety and Security
 TOT                     Training of Trainers
 USDH                    U.S. Direct Hire
 VAC                     Volunteer Advisory Committee
 VRF                     Volunteer Reporting Form
 VRT                     Volunteer Reporting Tool
 VSV                     Volunteers Supporting Volunteers




Final Program Evaluation Report: Peace Corps/Malawi                   35
    APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                                         REPORT




Final Program Evaluation Report: Peace Corps/Malawi    36
The Region will continue to work with Post and the departments identified in the Preliminary
Report to ensure closure of these recommendations by the dates included within for outstanding
recommendations.

Recommendation 1
That the regional chief of administrative operations ensure that the post’s operating plan
funds essential operations with appropriated funds rather than host country contributions.

       Concur:
       Post’s FY13 Operating Plan assures that essential operations are funded by appropriated and
       PEPFAR funds (as appropriate) and not dependent on Host Country Contributions (HCC).
       HCC has been reprogrammed to support PCV activities such as MST, COS conference, etc.

       Documents Submitted:
               N/A

       Status and Timeline for Completion: Completed August 2012

Recommendation 2
That the country director and director of programming and training ensure that
programming staff work roles are clearly delineated and aligned with position descriptions.

       Concur:
       Post developed and implemented a task analysis for the Program Assistants and APCDs to
       more clearly delineate their roles and responsibilities within the various realms of Volunteer
       support. This task analysis has been disseminated to all PCVs.

       Documents Submitted:
            Peace Corps-Malawi Programming and Training Task Analysis (January 2013)

       Status and Timeline for Completion: Completed, January 2013

Recommendation 3
That the director of programming and training ensure that project frameworks are aligned
with the Volunteer Reporting Forms.

       Concur:
       The Volunteer Reporting Forms (VRF) will be aligned with the project frameworks once the
       Frameworks are finalized after the portfolio review scheduled for June 17 - July 3, 2013.

       Documents Submitted:
            N/A

       Status and Timeline for Completion: Will be completed by September 30, 2013




                                                  2
Recommendation 4
That the director of programming and training ensure that Volunteers are adequately
trained to collect performance data and record it on their reporting form.

       Concur:
       In December 2012, at the Education IST, Volunteers received training on data collection
       and reporting in a session where they learned how to report their work through the VRT.
       PC/Malawi now provides essential monitoring and evaluation training sessions based on the
       FITU Global Core M&E Training sessions in PST, while training on VRT will continue to
       take place during ISTs, and M&E refresher sessions will be presented at MSTs, as necessary.

       Documents Submitted:
       Peace Corps Volunteer VRF Training (from Education In-Service Training-December 2012)

       Status and Timeline for Completion: Completed, December 2012

Recommendation 5
That the director of programming and training require programming staff to provide timely
and substantive feedback to Volunteers who submit a Volunteer reporting form.

       Concur:
       Through the bi-monthly PC/Malawi newsletter the country director and director of
       programming and training have made it clear and public to PCVs and staff that not
       responding to PCVs reports with quality and timely feedback is not acceptable. In addition,
       the DPT is developing guidance for Program Staff to ensure a consistent and thorough
       review and feedback process once VRFs have been received. During the next annual
       performance appraisal process, staff VRF feedback rates to Volunteers will be considered a
       factor in determining how well staff met performance objectives and will impact salary step
       increases and staff contract renewals. Confirmation that feedback has been received should
       occur in all cases and feedback should be provided within 30 days of receipt of VRFs.

       Documents Submitted:
            PC/Malawi newsletter (Zimachitika) for January-February 2013
            Email Guidance for Program Staff on reviewing PCV VRF
            Emails regarding reports submissions

       Status and Timeline for Completion: Completed February 2013

Recommendation 6
That the country director ensure that grants-related training and support align with the
Peace Corps approach to development.

       Concur:
       PC/Malawi has incorporated Project Design and Management (PDM) training into the first
       IST for all sectors approximately three months after they swear-in. This training is from the
       PDM Manual and focuses on Peace Corps’ approach to development. Tied to the PDM
       training sessions is a session on the available grant mechanisms at PC/Malawi. These

                                                 3
       sessions, along with the new consolidated grant process, has improved the management of
       the small grants program. These sessions received very high marks at the recent Education
       IST in December 2012.

       Documents Submitted:
       The New Project Design and Management Workshop Training Manual; Peace Corps Information
       Collection and Exchange; Publication Number T0107. Note: on the Peace Corps web site
       at: http://files.peacecorps.gov/multimedia/pdf/library/T0107_projectdesign.pdf

       Status and Timeline for Completion: Completed August 2012

Recommendation 7
That the country director and director of programming and training establish project
advisory committees.

       Concur:
       PC/Malawi will identify project advisory committee stakeholders over the next several
       months and the committee will be established and activated during the Portfolio Review
       scheduled for June 17 - July 3, 2013.

       Documents to be Submitted:
            List of Stakeholders

       Status and Timeline for Completion: Will be completed by September 30, 2013

Recommendation 8
That the country director provide an annual report to project stakeholders.

       Concur:
       The country director is currently in the process of collecting example annual reports from
       other PC Posts in Africa, as PC/Malawi intends to develop an annual report to correspond
       with the current fiscal year for dissemination at the end of the calendar year.

       Documents Submitted:
            N/A

       Documents to be Submitted:
            Annual Report 2013

       Status and Timeline for Completion: Will be completed by December 31, 2013




                                                4
Recommendation 9
That the country director ensure that procedures for developing, selecting, and approving
sites are established and implemented, and that site development activities are fully
documented.

       Concur:
       PC/Malawi is in the process of reviewing site development procedures and guidelines used
       in the past as well as collecting resources from other PC Posts. PC/Malawi has
       incorporated some of these ideas (e.g., use of checklists, site preparation forms, etc.), into
       the current process of site development for the upcoming PST. PC/Malawi will continue to
       refine the process as we go forward in preparation of the June PST, and from that process
       will finalize a standard procedure for the identification, selection, and preparation of sites.

       Documents Submitted:
            N/A

       Documents to be Submitted:
            Peace Corps-Malawi Site Development Guidelines

       Status and Timeline for Completion: Will be completed by September 30, 2013

Recommendation 10
That the country director develop and implement improved procedures for developing,
selecting, and approving Peace Corps Response program work sites.

       Concur:
       With the next intake of Peace Corps Response Volunteers (PCRVs) on February 19, 2013,
       Post will be analyzing the Peace Corps Response program with our partners and
       stakeholders to define a three-year strategic framework and assure that PCRVs have clearly
       defined standard jobs and that their assignments are in line with the needs and priorities of
       the Government of Malawi, rather than identifying the needs of each individual site. This
       will further be integrated in the Health Project Framework during the Portfolio Review
       scheduled for June 17 - July 3, 2013

       Documents Submitted:
            N/A

       Status and Timeline for Completion: Will be completed by September 30, 2013




                                                  5
Recommendation 11
That the Peace Corps/Response peer coordinator monitor the effectiveness of lowered
qualifications requirements and, as necessary, collaborate with the Peace Corps Response
office to further strengthen recruitment campaigns.

       Concur:
       In 2012 PC/Malawi in conjunction with the Ministry Local Government and Rural
       Development, eliminated the Master of Public Health requirement for his position as it was
       not relevant to the work the PCRVs were doing, and possibly hindering recruitment fill rates.
       With the next intake of Peace Corps Response Volunteers (PCRVs) on February 19, 2013,
       Post will be analyzing the Peace Corps Response program with our partners and
       stakeholders to define a three-year strategic framework and assure that PCRVs skill
       requirements are appropriate for the direction of the program.

       Documents Submitted:
            N/A

       Status and Timeline for Completion: Will be completed by September 30, 2013

Recommendation 12
That the country director survey Volunteers to assess the effectiveness of staff
communications and make adjustments, if necessary.

       Concur:
       Formal and informal evaluation has led us to believe that communication has improved
       throughout PC/Malawi. The need for better communication has been raised in nearly every
       VAC meeting since January 2012, as well as in the OIG Program Evaluation debrief, and in
       informal and formal meetings with PCVs. In order to address communication concerns, in
       June 2012 PC/Malawi initiated a weekly email to Volunteers with essential ‘need-to-know’
       information such as staff travel schedules, duty office roster, upcoming events, and
       deadlines, etc. The director of management and operations also raised PC/Malawi staff
       members’ cell phone limits to assure they would have sufficient air time credit to make
       follow-up calls to PCVs. With the Annual Volunteer Survey results of 2012, PC/Malawi
       also noted that 78% of PCVs in Malawi prefer text or phone calls to receive information;
       thus, PC/Malawi has been texting targeted important information (such as road closures or
       anticipated strikes), as well as using the weekly email notice. For the first time in several
       months, during the VAC meeting on November 30, 2012, communication was not an issue
       raised by PCVs. In addition, formal discussions (recent Environment and Health COS
       feedback sessions) and informal discussions with PCVs point to increased satisfaction with
       these measures and the frequency of PC/Malawi office communication.

       Documents Submitted:
            2013 Environment COS Conference Feedback
            VAC Meeting Minutes February 1, 2013

       Status and Timeline for Completion: Completed February 2013


                                                 6
Recommendation 13
That the post carry out site visits to each Volunteer according to its site visit policy.

       Concur:
       Post has developed a site visit policy that has been in force and practiced since its
       development in June 2012. The site visit policy and guidelines articulate the objectives,
       expectations, and roles and responsibilities of the PCV and staff member. PC/Malawi has
       added more detail in the current site visit guidelines to ensure that follow-up actions are
       documented and carried out in a defined timeframe.

       Documents Submitted:
            Peace Corps-Malawi Site Visit Policy

       Status and Timeline for Completion: Completed June 2012

Recommendation 14
That the country director ensure that all Volunteers have access to the post’s Emergency
Action Plan at their sites.

       Concur:
       The Emergency Action Plan (EAP) is posted on SharePoint, is available in the Volunteer
       lounge and Information Resource Center (IRC), and by practice all PCVs receive a hard
       copy at PST, and electronic updates with pertinent information such as warden lists.

       Documents Submitted:
            EAP SharePoint

       Status and Timeline for Completion: Completed and ongoing.

Recommendation 15
That the safety and security coordinator ensure that site locator forms are reviewed during
site visits and a system is in place to review and improve maps to Volunteer residences
when necessary.

       Concur:
       All volunteers are requested to submit site locator forms within thirty days after being
       deployed to site. The information is then fed onto Volunteer Information Data Analysis
       (VIDA). These are further reviewed and clarified as need be at the first IST, approximately
       three months into the PCV’s service. As staff (Programmers, SSC, Drivers, and PCMO)
       conduct site visits they carry copies of filled site locator forms for review and editing as
       necessary. Beginning in June 2012, the SSC has also sent a weekly reminder in the
       PC/Malawi weekly email communication to Volunteers. PCVs that do not submit site
       locator information within 30 days after site placement or changing sites are denied vacation
       and/or out-of-site permission.

       Documents Submitted:
            Weekly email re: Site Locator

                                                 7
       Status and Timeline for Completion: Completed June 2012

Recommendation 16
That the director of programming and training incorporate the participation of associate
Peace Corps directors into technical training.

       Concur:
       Beginning with the Education PST (June 2012 – August 2012), and continuing into the next
       PST for HE/ENV (March 2013 – May 2013), both APCDs and PAs have been more
       involved with the development, delivery, and quality assurance of technical training. This is
       through actually facilitating sessions, and monitoring the trainers and Training Resource
       Volunteers. This is evidenced in the changed needs for external technical trainers: one FTE
       per sector as opposed to three FTE per sector as has been the past practice.

       Documents Submitted:
            FY 2012 Training Status Report
            2012 Education TOT and COTE

       Status and Timeline for Completion: Completed February 2013


Recommendation 17
That the director of programming and training monitor the effectiveness of technical
training and make appropriate improvements.

       Concur:
       Starting with the Education Pre-Service Training (PST) in June 2012, Peace Corps-Malawi
       began strengthening its focus on evaluation, beginning with level one of Kirkpatrick’s four-
       level model for training course evaluation. In November 2012, the director of programming
       and training required that at minimum a level one evaluation be conducted for every training
       event. . Between March 2013 and the end of fiscal year 2013, post will undergo the majority
       of their training schedule, including two PSTs, Mid-Service Trainings (MSTs), and other In-
       Service Trainings (ISTs), allowing for a full cycle of assessment and improved approaches to
       technical training. During the upcoming PST in March, Peace Corps Malawi will intensify its
       focus on preparing appropriate Health and Environment technical sessions and will pilot
       level one and two evaluations. At the Education PST in June, Peace Corps Malawi will
       adjust and finalize the level one and two evaluation process to ensure PCVs have the
       essential technical knowledge and skills to succeed in their PC service. The DPT is also
       developing a process to ensure needs assessments are conducted prior to commencement of
       technical training events, including IST and MST.

       Documents Submitted:
            N/A

       Documents to be Submitted:
            Sample Level One Evaluation Form

                                                 8
       Status and Timeline for Completion: Will be completed by September 30, 2013


Recommendation 18
That the director of programming and training monitor the effectiveness of HIV/AIDS
training and make appropriate improvements.

       Concur:
       Based on PCV feedback, the Annual Volunteer Survey, and debrief of the OIG Program
       Evaluation, PC/Malawi has initiated in depth HIV/AIDS trainings as standalone ISTs. Post
       has standardized training in Action for Natural Medicine (ANAMED) Behavior Change
       Communication/Life skills, and Grassroots Soccer, and a systematic evaluation process after
       the event.

       Documents Submitted:
            PCV and Counterpart Evaluation Grass Roots Soccer
            Questionnaire for Evaluation of ANAMED Training

       Status and Timeline for Completion: February 2013


Recommendation 19
That the country director ensure that Volunteers are adequately trained to use Peace Corps’
small grants programs.

       Concur:
       PC/Malawi has incorporated Project Design and Management (PDM) training into the first
       IST for all sectors approximately three months after they swear-in. Tied to the PDM
       training sessions is a session on the available grant mechanisms at PC/Malawi. These
       sessions, along with the new consolidated grant process, have improved the management of
       the small grants program. These sessions received very high marks at the recent Education
       IST in December 2012.

       Documents Submitted:
            Grant Mechanisms available at PC/Malawi Training Session

       Status and Timeline for Completion: Completed August 2012


Recommendation 20
That the country director ensure that HIV-related performance data is effectively collected.

       Concur:
       Country Director developed a supplemental HIV/AIDS reporting tool meeting OGAC
       standards, and distributed it to all Volunteers. It was also discussed and presented again at
       PCV Regional meetings in August 2012, in which 94 PCVs participated. PC/Malawi has

                                                  9
       also worked to incorporate the new PEPFAR definition of Orphans and Vulnerable
       Children (OVC) to ensure PCVs are accurately counting these groups. This reporting tool
       will be incorporated into the VRF for all sectors once the Project Frameworks are finalized
       after the portfolio review scheduled for June 17 - July 3, 2013.

       Documents Submitted:
            HIV Reporting Template

       Status and Timeline for Completion: Completed June 2012

Recommendation 21
That the country director ensure that Peace Corps Response activities are incorporated into
the Volunteer reporting tool.

       Concur:
       The Peace Corps Response (PCR) activities have never been reported in the VRF, but since
       June, 2012, have been reported into the newly developed HIV reporting tool (see
       recommendation #20). However, PCR activities have now been incorporated into the draft
       Health Project Framework, and these activities will be incorporated in the VRF once the
       Frameworks are finalized after the portfolio review scheduled for June 17 - July 3, 2013.

       Documents Submitted:
            HIV Reporting Template

       Status and Timeline for Completion: Will be completed by September 30, 2013




                                                10
                        APPENDIX C: OIG COMMENTS
Management concurred with all 21 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the agency has taken these actions or that we have reviewed their effect. Certifying compliance
and verifying effectiveness are management‟s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and to
evaluate the impact.

All 21 recommendations remain open. The post has provided supporting documentation for 11 of
the 21 recommendations, which OIG will review following completion of approval and
verification procedures through the region and chief compliance officer. OIG will review and
consider closing recommendations 2, 4, 5, 7-9, 11-14, and 16-21 when the documentation
reflected in the agency‟s response to the preliminary report is received. OIG will review and
consider closing recommendations 1, 3, 6, 10, and 15 pending confirmation from the chief
compliance officer that the documentation reflected in OIG Analysis is received.

1: That the regional chief of administrative operations ensure that the post’s operating plan
funds essential operations with appropriated funds rather than host country contributions.

       Concur:
       Post‟s FY13 Operating Plan assures that essential operations are funded by appropriated
       and PEPFAR funds (as appropriate) and not dependent on Host Country Contributions
       (HCC). HCC has been reprogrammed to support PCV activities such as MST, COS
       conference, etc.

       Documents Submitted:
       N/A

       Status and Timeline for Completion: Completed August 2012

       OIG Analysis: Please submit budget documents that demonstrate essential operations are
       not funded by Host Country Contributions.

3: That the director of programming and training ensure that project frameworks are
aligned with the Volunteer Reporting Forms.

       Concur:
       The Volunteer Reporting Forms (VRF) will be aligned with the project frameworks once
       the Frameworks are finalized after the portfolio review scheduled for June 17 - July 3,
       2013.

       Documents Submitted:
       N/A


Final Program Evaluation Report: Peace Corps/Malawi                                               46
       Status and Timeline for Completion: Will be completed by September 30, 2013

       OIG Analysis: Please submit finalized project frameworks and updated Volunteer
       Reporting Forms.

6: That the country director ensure that grants-related training and support align with the
Peace Corps approach to development.

       Concur:
       PC/Malawi has incorporated Project Design and Management (PDM) training into the
       first IST for all sectors approximately three months after they swear-in. This training is
       from the PDM Manual and focuses on Peace Corps‟ approach to development. Tied to
       the PDM training sessions is a session on the available grant mechanisms at PC/Malawi.
       These sessions, along with the new consolidated grant process, has improved the
       management of the small grants program. These sessions received very high marks at the
       recent Education IST in December 2012.

       Documents Submitted:
       The New Project Design and Management Workshop Training Manual; Peace Corps
       Information Collection and Exchange; Publication Number T0107. Note: on the Peace
       Corps web site at:
       http://files.peacecorps.gov/multimedia/pdf/library/T0107_projectdesign.pdf

       Status and Timeline for Completion: Completed August 2012

       OIG Analysis: Please submit in-service training calendar of training events.

10: That the country director develop and implement improved procedures for developing,
selecting, and approving Peace Corps Response program work sites.

       Concur:
       With the next intake of Peace Corps Response Volunteers (PCRVs) on February 19,
       2013, Post will be analyzing the Peace Corps Response program with our partners and
       stakeholders to define a three-year strategic framework and assure that PCRVs have
       clearly defined standard jobs and that their assignments are in line with the needs and
       priorities of the Government of Malawi, rather than identifying the needs of each
       individual site. This will further be integrated in the Health Project Framework during
       the Portfolio Review scheduled for June 17 - July 3, 2013.

       Documents Submitted:
       N/A

       Status and Timeline for Completion: Will be completed by September 30, 2013




Final Program Evaluation Report: Peace Corps/Malawi                                              47
       OIG Analysis: Please submit procedures for developing, selecting, and approving Peace
       Corps Response program work sites.

15 : That the safety and security coordinator ensure that site locator forms are reviewed
during site visits and a system is in place to review and improve maps to Volunteer
residences when necessary.

       Concur:
       All volunteers are requested to submit site locator forms within thirty days after being
       deployed to site. The information is then fed onto Volunteer Information Data Analysis
       (VIDA). These are further reviewed and clarified as need be at the first IST,
       approximately three months into the PCV‟s service. As staff (Programmers, SSC,
       Drivers, and PCMO) conduct site visits they carry copies of filled site locator forms for
       review and editing as necessary. Beginning in June 2012, the SSC has also sent a weekly
       reminder in the PC/Malawi weekly email communication to Volunteers. PCVs that do
       not submit site locator information within 30 days after site placement or changing sites
       are denied vacation and/or out-of-site permission.

       Documents Submitted:
       Weekly email re: Site Locator

       OIG Analysis: Please submit, in addition to the weekly email re: Site Locator, policies or
       guidance issued to staff to review and edit site locator forms while conducting site visits.




Final Program Evaluation Report: Peace Corps/Malawi                                             48
    APPENDIX D: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT
PROGRAM                       This program evaluation was conducted under the
EVALUATION                    direction of Assistant Inspector General for Evaluations
                              Jim O‟Keefe by Senior Evaluator Reuben Marshall.
COMPLETION
                              Additional contributions were made by Tim Shaw and Hal
                              Nanavati.




                              Jim O‟Keefe
                              Assistant Inspector General for Evaluations


OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Assistant Inspector
                              General for Evaluations Jim O‟Keefe at
                              jokeefe@peacecorps.gov, or call 202.692.2904.




Final Program Evaluation Report: Peace Corps/Malawi                                         49
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 www.peacecorps.gov/OIG
            Twitter:               www.twitter.com/PCOIG
